,
D                                                 EMPLOYMENT AND TRAINING
R
A                                                 ADMINISTRATION
F
T




    Office of Inspector General—Office of Audit




                                                  MANAGEMENT & TRAINING CORPORATION
                                                  DID NOT ENSURE BEST VALUE IN
                                                  AWARDING SUB–CONTRACTS AT THE
                                                  CLEARFIELD JOB CORPS CENTER




                                                                    Date Issued:     March 30, 2012
                                                                 Report Number:    26-12-003-03-370
U.S. Department of Labor                                    March 2012
Office of Inspector General
Office of Audit                                             MANAGEMENT & TRAINING CORPORATION
                                                            DID NOT ENSURE BEST VALUE IN AWARDING
                                                            SUB–CONTRACTS AT THE CLEARFIELD JOB
BRIEFLY…                                                    CORPS CENTER
Highlights of Report Number 26-12-003-03-370, issued
to the Assistant Secretary for Employment and Training.     WHAT OIG FOUND
                                                            MTC Clearfield improperly awarded 10 of the 12
WHY READ THE REPORT                                         sub-contracts it managed during our review period. We
Management & Training Corporation (MTC) operates            questioned $2,813,773 because MTC Clearfield did not
the Clearfield Job Corps Center (MTC Clearfield),           comply with its own SOPs. We also questioned $77,866
located in Clearfield, Utah. This report discusses how      in costs for 16 expenditures more than $3,000 because
MTC Clearfield did not ensure best value was received       MTC Clearfield did not adequately justify and document
by the government when awarding sub–contracts and           sole-source procurements for the expenditures. Based
purchase orders. While MTC is not required to               on our statistical sample of 41 expenditures, we
specifically comply with the Federal Acquisition            estimated that there were between $155,860 and
Regulation (FAR), DOL policy requires MTC’s                 $309,166 in potential questioned costs. In addition, for
procedures to be consistent with FAR principles for fair    10 expenditures totaling $144,428 that were not
and open competition. We questioned costs totaling          included in our statistical sample, MTC Clearfield could
approximately $3 million due to MTC Clearfield’s non-       not justify why the expenditures were paid without a
compliance with its own procurement Standard                related contracting instrument. In total, we questioned
Operating Procedures (SOP). This report also                about $3 million ($2,813,773 plus $77,866 plus
discusses process improvements MTC Clearfield, ETA,         $144,428) in specific claimed costs related to MTC
and Job Corps need to make to ensure MTC                    Clearfield’s non-compliance with its own SOPs.
Clearfield’s future sub-contract and purchase order         However, based on our statistical sampling, the total
awards comply with its own procurement guidance.            costs for improperly awarded sub–contracts, purchase
                                                            orders, and expenditures may be as high as $3.3 million
MTC Clearfield’s contract covers the five-year period       ($2,813,773 plus $309,166 plus $144,428).
from April 1, 2010, to March 31, 2015. The contract
value totals approximately $146 million, ($57 million for   These conditions occurred because MTC had not
the base 2-year period and $89 million for 3 option         established a control environment, including training
years).                                                     and oversight, to ensure consistent compliance with its
                                                            SOPs. Also, neither ETA contracting personnel nor Job
WHY OIG CONDUCTED THE AUDIT                                 Corps regional staff adequately monitored MTC
Our audit objective was to answer the following             Clearfield’s sub-contracting procurement activities.
question:
                                                            WHAT OIG RECOMMENDED
      Did MTC Clearfield ensure best value when             We recommended the Assistant Secretary for
      awarding sub–contracts and claiming costs?            Employment and Training recover the costs we
                                                            questioned, as appropriate; direct MTC to strengthen
Our audit work was conducted at the MTC Clearfield          procedures, training, and oversight to ensure
Job Corps Center in Clearfield, UT; MTC Headquarters        compliance; and direct ETA contract personnel and Job
in Centerville, UT; ETA Headquarters’ Office of Contract    Corps regional staff to review all future MTC Clearfield
Management and the Job Corps National Office in             sub–contracts for procurement compliance and
Washington, DC; the Dallas Regional Office of Job           approval prior to award.
Corps in Dallas, TX; and the Philadelphia Regional
Office of Job Corps in Philadelphia, PA.                    ETA generally agreed with our findings, fully or partially
                                                            accepted all of our recommendations, and will require
READ THE FULL REPORT                                        MTC Clearfield to request ETA approval before any
To view the report, including the scope, methodology,       future sub–contracting awards. MTC disagreed with our
and ETA and MTC full responses, go to:                      draft report, including our use of the FAR as criteria for
http://www.oig.dol.gov/public/reports/oa/2012/26-12-        sub-contracting awards made by MTC. Based on the
003-03-370.pdf.                                             responses of MTC and ETA, we adjusted the report to
                                                            reflect that MTC must comply with its own procurement
                                                            SOPs, which must be consistent with the FAR
                                                            principles for fair and open competition.
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   MTC Clearfield Sub-contracting 

                                    Report No. 26-12-003-03-370 

                                                      U. S. Department of Labor – Office of Inspector General



Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results in Brief .............................................................................................................. 3


Objective — Did MTC Clearfield ensure best value when awarding sub–contracts 

and claiming costs?...................................................................................................... 5

         MTC Clearfield improperly awarded sub–contracts resulting in about $2.8 

           million in questioned costs. ............................................................................. 5


         Finding — MTC Clearfield did not always award sub–contracts and 

            purchase orders or claim costs as required by its own procurement 

            guidance.......................................................................................................... 5


Recommendations ...................................................................................................... 12


Exhibits
         Exhibit 1 MTC Clearfield Sub–contracts and SOP Non-compliance................... 17

         Exhibit 2 FAR Criteria on Sub–contracting Used by ETA Contracting 

            Officers.......................................................................................................... 19


Appendices
         Appendix A Background ..................................................................................... 23

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 25

         Appendix C Acronyms ........................................................................................ 29

         Appendix D ETA Response to Draft Report ....................................................... 31

         Appendix E MTC Response to Draft Report ....................................................... 35

         Appendix F Acknowledgements ......................................................................... 51





                                                                                          MTC Clearfield Sub-contracting 

                                                                                           Report No. 26-12-003-03-370 

         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   MTC Clearfield Sub-contracting 

                                    Report No. 26-12-003-03-370 

                                                  U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                               Office of Inspector General
                                                       Washington, D.C. 20210



March 30, 2012

                                Assistant Inspector General’s Report

Ms. Jane Oates
Assistant Secretary
 for Employment and Training
200 Constitution Avenue, NW
Washington, DC 20210

Job Corps is a residential training program for disadvantaged youth where employability
skills are developed. Its training activities and living facilities are housed within 125 centers
throughout the country. The Job Corps program is administered by the Department of
Labor’s (DOL) Employment and Training Administration (ETA) per authorization provided
by the Workforce Investment Act (WIA). Within ETA, the program is managed by the Office
of Job Corps, which consists of a national office and 6 regional offices. The Job Corps
program’s budget for Fiscal Year (FY) 2011 totaled about $1.7 billion.

Management & Training Corporation (MTC) operates the Clearfield Job Corps Center
(MTC Clearfield), located in Clearfield, Utah. MTC Clearfield’s contract covers the 5-year
period from April 1, 2010, to March 31, 2015. The contract value totals approximately
$146 million, ($57 million for the base 2-year period and $89 million for 3 option years).

The FAR Subpart 44.302 requires ETA to determine the need for a Contractor’s Purchasing
System Review (CPSR) based on, but not limited to, the past performance of the contractor
and dollar value of sub–contracts (generally $25 million). FAR Subpart 44.301 states the
objective of a CPSR is to evaluate the efficiency and effectiveness with which the
contractor spends Government funds and complies with Government policy when
sub-contracting. The review provides the Contracting Officer with a basis for granting,
withholding, or withdrawing approval of the contractor’s purchasing system. 1 Furthermore,
FAR Subpart 44.303 states, “The 13 considerations listed in FAR Subpart 44.202-2 for
consent evaluation of particular sub–contracts also shall be used to evaluate the
contractor’s purchasing system, including the contractor’s policies, procedures, and
performance under that system. Special attention shall be given to:

    (a) The results of market research accomplished;
    (b) The degree of price competition obtained;
    (c) Pricing policies and techniques, including methods of obtaining certified cost or
        pricing data;
    (d) Methods of evaluating sub-contractor responsibility;

1
 ETA reviews each center operator’s procurement systems every three years. If the procurement system is
“approved,” ETA contracting officials reduce their oversight of the center operator’s procurement activities.

                                                                                     MTC Clearfield Sub-contracting
                                                           1                          Report No. 26-12-003-03-370
                                                U. S. Department of Labor – Office of Inspector General


    (g) Planning, award, and post-award management of major sub-contract programs; and
    (j) Appropriateness of types of contracts used.”

See Exhibit 2 for selected details on the FAR criteria ETA Contracting Officers use to
evaluate contractor purchasing systems.

DOL policy for conducting CPSRs (Section 4.9) states that it is in the government’s interest
to perform CPSRs when a contractor’s total combined business with Job Corps exceeds
$25 million. The policy further clarifies the center operators’ responsibility to establish
procurement policies and procedures that are consistent with the FAR. The DOL policy
states that under the terms of center operator contracts, Contracting Officers are
responsible for ensuring that contractors procure goods and services on behalf of the Job
Corps program in conformance with the contract provisions and principles detailed in the
FAR. Contracting officers can either review and consent to all sub–contracts for the
contract, or may approve the contractor’s purchasing system. The policy also states that
the FAR allows for approval of purchasing systems that demonstrate compliance with FAR
principles after a rigorous review of all purchasing manuals and procedures. Additionally,
MTC’s corporate Standard Operating Procedures (SOP) require that its center processes
be consistent with government regulations. 2

MTC had an approved CPSR. As such, MTC Clearfield was required to submit only its
health and medical sub–contracts to ETA for consent prior to contract award. 3 Additionally,
MTC Clearfield’s SOPs were approved by ETA when MTC was awarded the contract to
operate MTC Clearfield. If MTC Clearfield sub-contracting execution is not consistent with
its SOPs, then ETA is authorized by the FAR to withdraw MTC CPSR approval. 4

Based on the responses of MTC and ETA to our draft report (Appendices D and E) and
subsequent communication, we revised our criteria to evaluate MTC Clearfield’s
compliance with its own procurement SOPs and the SOPs’ consistency with the FAR
requirement for ensuring best value to the government. As such, our audit objective was to
answer the following question:

    Did MTC Clearfield ensure best value when awarding sub–contracts and claiming
    costs?

To address our audit objective, we reviewed criteria that were applicable to MTC
Clearfield’s procurement activities as of March 2011, including specific sections of the FAR,
Job Corps’ Policy and Requirements Handbook (PRH), contract provisions, and the
center’s SOPs. We analyzed MTC’s and Job Corps Dallas Regional Office’s assessments
of MTC Clearfield’s operations, performed process walkthroughs with key MTC corporate
and MTC Clearfield officials, and discussed our audit with ETA and Job Corps staff. We
reviewed MTC Clearfield’s SOPs to determine whether they ensured open competition and


2
  MTC SOP #13.01, General Purchasing Policy, dated January 1, 2011, Paragraph B.1. 

3
  Center operators without an approved CPSR are required to submit all sub-contracts to ETA for consent. 

4
  FAR Subpart 44.305-3. 


                                                                                  MTC Clearfield Sub-contracting
                                                         2                         Report No. 26-12-003-03-370
                                               U. S. Department of Labor – Office of Inspector General


best value to the government and tested each of the sub–contracts and expenditures 5 for
compliance with the SOPs. Our testing included a review of the sub–contracts to determine
if the center obtained adequate price competition or properly justified its absence;
considered past performance, technical requirements, and ability to comply with proposed
performance and delivery schedules; and performed adequate cost or price comparisons.
We also determined whether documentation was maintained to support claimed costs.

The audit covered sub–contracts managed and expenditures incurred by MTC Clearfield
from April 1, 2010, to March 31, 2011. We examined all 12 sub–contracts (and their related
invoice payments) more than $25,000, totaling $2,884,104, managed by MTC Clearfield
during this period. We also reviewed a statistical sample of 41 expenditures more than
$3,000, totaling approximately $322,000, from 121 expenditures totaling approximately
$942,000. These expenditures were generally initiated by purchase orders and were
separate items from the 12 sub–contracts we reviewed. Additionally, we reviewed 10
expenditures totaling approximately $144,000 that were judgmentally selected, and 2
strategic agreements (contracts) awarded by MTC headquarters’ procurement staff.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Additional
background information is detailed in Appendix A, and our objective, scope, methodology,
and criteria are detailed in Appendix B.

Results in Brief

MTC Clearfield did not always ensure best value was received by the government when
awarding sub–contracts and purchase orders. We questioned costs totaling more than
$3 million 6 because MTC Clearfield did not always comply with its SOPs and ensure best
value to the government. Based on our statistical sampling, we estimated that improperly
awarded sub–contracts and purchase orders may be as high as $3.3 million. 7

MTC Clearfield improperly awarded 10 of 12 sub–contracts managed during our review
period. For the 10 sub–contracts, we questioned $2,813,773 because the center had not
complied with its own procurement procedures and ensured best value. For 6 of these sub–
contracts, MTC Clearfield did not adequately justify the sole-source procurements to
establish a sound basis for award as required. For the other 4 sub–contracts, MTC
Clearfield did not conduct adequate solicitations, cost or price analysis, or perform
responsibility checks (such as evaluating quality, delivery, and technical aspects) as


5
  We also reviewed expenditures associated with purchase orders and other documents procuring goods and services, the 

use of which is addressed in MTC Clearfield’s SOPs. 

6
  Approximately $2,813,773 in sub-contracts, $77,866 in purchase orders, and $144,428 for 10 invoices paid without a 

purchase order contract.

7
  A final determination will be made by ETA as to the amount of excess funds paid by contractor to be recovered while

recognizing the value of goods and services received. 


                                                                               MTC Clearfield Sub-contracting
                                                        3                       Report No. 26-12-003-03-370
                                                   U. S. Department of Labor – Office of Inspector General


required. 8 Since these sub-contracts were for physician services, including medical, mental
health, dental, and optometry, it was critical that MTC Clearfield ensure its students
received adequate care by performing responsibility checks. Responsibility checks should
include technical skills, experience, and past performance in the following areas: providing
services to a diverse student population, ages 16-24; and conducting mental health
assessments, supervising treatment plans, and providing individual and group therapy and
training. In addition, MTC Clearfield did not follow its own SOPs, which required
documentation to support $165,141 of invoice payments made for three of the sub–
contracts. These costs are already included in the $2,813,773 we questioned because the
awarding of the sub–contracts did not ensure best value.

Awarding purchase orders to vendors was an issue for 16 (39 percent) of the 41
expenditures more than $3,000 we statistically selected. For all 16 expenditures, MTC
Clearfield did not adequately justify and document sole-source procurements and MTC
Clearfield management approved the expenditures without verifying the adequacy of the
sole source justifications. We questioned $77,866 in total costs for the 16 expenditures.
Based on our statistical sample of the 41 expenditures, we are 95 percent confident there
were between $155,860 and $309,166 in potential questioned costs. 9 In addition, for 10
expenditures not included in our statistical sample and totaling $144,428, MTC Clearfield
could not justify why the expenditures were paid without a related sub-contract or purchase
order. Together with the 10 improperly awarded sub–contracts, the 16 improperly awarded
purchase orders, and the 10 expenditures paid without a contracting instrument, the total
costs for improperly awarded subcontracts, purchase orders, and expenditures may be as
high as $3.3 million ($2,813,773 plus $309,166 plus $144,428).

These conditions occurred because MTC Clearfield did not comply with its own SOPs;
and training and oversight were not adequate. The center also did not have sufficiently
detailed procedures in place. As such, MTC Clearfield had not established a control
environment to ensure compliance and best value to the government. In response to
our draft report, ETA generally agreed with our findings, fully or partially accepted all of
our recommendations, and modified MTC Clearfield’s CPSR to require ETA approval
before any future sub-contracting awards. However, ETA requested we clarify the
relationship between the FAR criteria cited in our report and the contractor’s
procurement SOPs. MTC disagreed with our draft report, including our use of the FAR
as criteria for sub-contracting awards made by MTC. Based on the responses of MTC
and ETA, we adjusted the report to reflect that MTC must comply with its own
procurement SOPs, which must be consistent with the FAR principles for fair and open
competition. The change in criteria did not substantially change our conclusions. In
addition, neither ETA contracting personnel nor Job Corps regional staff adequately
monitored MTC Clearfield’s procurement activities to determine if MTC Clearfield
achieved best value through fair and open competition in its sub-contracting. (see
Appendix D for ETA’s response to our draft report and Appendix E for MTC’s response.)


8
 MTC selection criteria for suppliers include quality, delivery, and technical aspects (SOP 560.1, B.7). We refer to this 

evaluation as “responsibility checks” throughout this report. 

9
  The midpoint estimate was $232,513.


                                                                                     MTC Clearfield Sub-contracting
                                                            4                         Report No. 26-12-003-03-370
                                                U. S. Department of Labor – Office of Inspector General


We recommended the Assistant Secretary for Employment and Training recover the $3
million we questioned, as appropriate; direct MTC and MTC Clearfield to strengthen
procedures, training, and oversight to ensure compliance with its own procurement criteria;
and direct ETA contract personnel and Job Corps regional staff to review all future MTC
Clearfield sub–contracts for competition and best value prior to award approval.

RESULTS AND FINDINGS

Objective — Did MTC Clearfield ensure best value when awarding sub–contracts
             and claiming costs?

        MTC Clearfield improperly awarded sub–contracts resulting in about $2.8 million
        in questioned costs.

Finding — MTC Clearfield did not always award sub–contracts and
           purchase orders or claim costs as required by its own
           procurement guidance.

MTC Clearfield improperly awarded 10 of 12 sub–contracts totaling $2,813,773 because
MTC Clearfield did not comply with its own procurement procedures and ensure best value.
MTC Clearfield also improperly awarded purchase orders to vendors for 16 of the 41
expenditures, more than $3,000. We questioned $77,866 in costs for the 16 expenditures
because MTC Clearfield did not adequately justify and document sole-source procurements
for all 16 expenditures. Based on our statistical sample of the 41 expenditures, we
estimated that there were between $155,860 and $309,166 in potential questioned costs. In
addition, for 10 expenditures totaling $144,428 that were not included in our statistical
sample, MTC Clearfield could not justify why the expenditures were paid without a related
contracting instrument. In total, we questioned about $3 million ($2,813,773 plus $77,866
plus $144,428) in specific claimed costs. However, based on our statistical sampling, the
total costs for improperly awarded sub–contracts, purchase orders, and expenditures may
be as high as $3.3 million ($2,813,773 plus $309,166 plus $144,428). 10

These conditions occurred because MTC Clearfield had not established a control
environment, including training and oversight, to ensure compliance with its own SOPs and
best value to the government. Also, neither ETA contracting personnel nor Job Corps
regional staff adequately monitored MTC Clearfield’s procurement activities to determine if
MTC Clearfield achieved best value through fair and open competition in its sub-
contracting.




10
 A final determination will be made by ETA as to the amount of excess funds paid by contractor to be recovered
while recognizing the value of goods and services received.

                                                                                MTC Clearfield Sub-contracting
                                                        5                        Report No. 26-12-003-03-370
                                      U. S. Department of Labor – Office of Inspector General


MTC Clearfield’s SOP Requirements

When awarding sub–contracts, MTC Clearfield is required by its contract and the PRH to
follow its own procurement SOPs. The MTC Clearfield SOPs for procuring goods or
services and claiming costs include the following:

MTC Clearfield SOP # 560.01, General Purchasing Policy

   •	 B.1. Professional Ethics – Procurement shall be conducted to obtain what is
      required, when needed, at the best overall value, always considering the lowest
      practical price, economic quality and advantages of competition. Procurement files
      shall be properly documented and organized to permit subsequent audit as to
      conformance with policy and procedures, individual responsibility, and justification
      for decisions and approvals.

       B.7. Source Selection Criteria – Supplier bids shall be evaluated upon best value.
       Completed bid documentation will be reviewed by the appropriate level of authority
       prior to commitment. Written requests for quotation shall provide specifications in
       adequate detail for the purpose of pricing, quality, delivery, and technical aspects, as
       applicable.

   •	 B.7. a. and b. Market Research and Price Analysis – The buyer should 

      perform and document market research on an ongoing basis, and to the 

      maximum extent practicable, in order to locate suppliers or verify if a 

      supplier is the only source. The buyer should perform and document price 

      analysis on an ongoing basis, and to the maximum extent practicable. The 

      price analysis may be analysis either through lump sum or unit cost 

      pricing. 


MTC Clearfield’s SOP # 560.02, Purchasing Policy

   •	 B.7. Bidding Levels and File Documentation – For purchases made under 

      the Major Purchase Policy, minimum bidding levels and file documentation 

      shall be followed. 

         - Competition is required for purchases greater than $3,000.
         - Where competition is required, the buyer shall seek to obtain the
             following minimum number of vendor bids:
         - Up to $3,000 – One quotation
         - Over $3,000 – Minimum of three quotations – must be in writing.
         - Purchase order/contract files shall be documented to show
             compliance with purchasing policies and procedures.

MTC Clearfield’s SOP # 560.04.3, Major Purchase Procedure

   •   Procedures, 2.a. – The buyer shall ensure that the purchase is properly advertised
       and/or solicited. Possible sources may be obtained through indirect solicitations

                                                                MTC Clearfield Sub-contracting
                                             6                   Report No. 26-12-003-03-370
                                              U. S. Department of Labor – Office of Inspector General


        (newspaper advertising, the federal government point of entry, currently
        FedBizOpps, and other public notices or advertising) and direct solicitations
        (mailings and phone calls). If indirect solicitations do not provide the minimum
        number of bidders, also use direct solicitations when possible.

     •	 Procedures, 2.c. – Competitive bidding practices are used as required. A sole
        source justification memo shall be provided where competition, federal government,
        or Corporate Strategic Agreement sourcing is not possible. The memo must be
        completed prior to awarding the purchase.

     •	 Procedures, 2.k. – The buyer shall ensure for purchases greater than the Simplified
        Acquisition Threshold ($100,000), the requirements for Cost or Pricing Data are
        applied. Exemptions for Cost or Pricing Data include: price is based on adequate
        price competition; price is set by law or regulation, and commercial items/services.
        (Cost or Pricing Data requirements are outlined in the FAR clauses contained in the
        Prime Contract.)

     •	 Procedures, 3.d. and e. – If bidding is required, the buyer shall complete a Bid
        Abstract form. The form shall show the comparative pricing for all bidders. The form
        or attached memo shall indicate how the purchase was solicited, names of
        newspapers with dates advertised, Federal government point of entry (currently
        FedBizOpps), direct mailing (including name source), phone log, etc.

     •	 Procedures, 4.c. – If the purchase is greater than $3,000, the buyer shall 

        complete a standard Award Justification form. If the procurement is 

        designated a sole source, a Sole Source Justification memo is required. 

        The memo shall be written and signed by the person who designated the 

        purchase as a sole source and also signed by the center director. 


Non-Compliance Resulted in More Than $3 Million in Questioned Costs

We reviewed all 12 sub–contracts, totaling $2,884,104 million, managed by MTC
Clearfield from April 1, 2010, to March 31, 2011. We also reviewed a statistical sample
of 41 expenditures 11 more than $3,000, totaling $322,000, from 121 expenditures
totaling $942,000. In addition, we reviewed 10 expenditures totaling $144,428 that were
not included in our universe from which we selected the statistical sample and found
that MTC Clearfield could not justify why the expenditures were paid without a related
contracting instrument.




11
  We also reviewed expenditures associated with purchase orders and other documents procuring goods and services,
the use of which is addressed in MTC Clearfield’s SOPs.

                                                                              MTC Clearfield Sub-contracting
                                                       7                       Report No. 26-12-003-03-370
                                         U. S. Department of Labor – Office of Inspector General


MTC Clearfield did not consistently comply with its own SOPs resulting in questioned
costs totaling more than $3 million. Table 1 summarizes the types of non-compliance,
the number of instances, and the questioned costs for each type.

Table 1: MTC Clearfield non-compliance resulting in questioned costs
                                       Sub–contracts over            Expenditures over
       SOP Non-compliance              $25,000 / amount of           $3,000 / amount of
                                         questioned costs             questioned costs
  Inadequate sole-source
                                            6 of 12 (50%)          Sample: 16 of 41 (39%)
  justification, SOP # 560.02,
                                             $2,384,165                      $77,866
  560.04.3 (Par. B.4.)
  Adequate solicitations, cost or
  price analysis, or responsibility
  checks were not executed prior to         4 of 12 (33%)
                                                                        Not applicable
  sub-contract award. SOP #                    $429,608
  560.01 (Paragraph B.7)* and
  SOP # 560.04.03
  Invoice payments made without
  an approved contracting
  instrument because SOPs were
  not followed. SOP # 560.04                                       10 expenditures (100%)
                                            Not Applicable
  (Paragraph A), SOP # 560.04.3                                            $144,428
  (Par. B.1., B.2., B.4., B.7., B.12)
  SOP # 507.5 (Par. B. Purchase
  Requisition/Purchase Order)
                                                                        16 of 41 (39%)
                 Totals                     10 of 12 (83%)               $77,866 and
              $3,036,067                     $2,813,773                10 of 10 (100%)
                                                                            $144,428
*SOP # 560.01, Paragraph B.7. states “Written requests for quotation shall provide
specifications in adequate detail for the purpose of pricing, quality, delivery, and technical
aspects, as applicable.” Responsibility checks include quality, delivery, and technical aspects
associated with vendor capability. In addition, responsibility checks also include technical
skills, experience, and past performance in the following areas: providing services to a
diverse student population, ages 16-24; and conducting mental health assessments,
supervising treatment plans, and providing individual and group therapy and training.

Sub–contracts More Than $25,000 with Questioned Costs

As noted, we questioned more than $2.8 million in costs for 10 sub–contracts managed
by MTC Clearfield. The following are examples of how MTC Clearfield did not ensure
(1) compliance with its SOPs; or (2) best value to the government:

       Sub–contracts managed by MTC Clearfield – In 2010, Matthew Gardiner, M.D.,
       was awarded a sub-contract with a base 2-year amount of $68,800 to provide
       psychiatric services for Job Corps students. The contract also had three option

                                                                     MTC Clearfield Sub-contracting
                                                8                     Report No. 26-12-003-03-370
                                                U. S. Department of Labor – Office of Inspector General


        years with an aggregate value for all five years of $202,240. In awarding the
        initial sub-contract, MTC Clearfield requested bids on the FedBizOpps website
        and received one bid, from Matthew Gardiner. In addition, the ETA Contracting
        Officer approved this sub-contract.

        However, MTC Clearfield did not comply with its own SOPs, 560.02 and
        560.04.3, 12 when it awarded the sub-contract to Matthew Gardiner because it did
        not perform a cost or price analysis or solicit additional bids. Both of these
        required actions should have been conducted because there was an absence of
        price competition since the center received only one bid. As such, MTC Clearfield
        could not ensure the sub-contract award resulted in best value to the
        government. We questioned the costs for the base 2-year period only and not the
        option years, or $68,800.

     •	 Sole source sub–contracts awarded by MTC Clearfield – In 2010, Adventures in
        Advertising was awarded a base two-year, $607,040 sub-contract to provide
        student clothing and career prep uniforms to Job Corps students. The contract
        had three option years with an aggregate value for all 5 years totaling
        $1,517,600. In awarding the initial sub-contract, MTC Clearfield issued a sole-
        source award and did not competitively bid or advertise the sub-contract. In
        addition, the ETA Contracting Officer approved this sub-contract.

        When awarding the sub-contract to Adventures in Advertising, MTC Clearfield did
        not comply with its own SOPs 13 , because the center did not allow for competition
        or adequately justify its sole source award. The sole-source justification records
        maintained by MTC Clearfield stated, “Only one responsible source for the
        needed supplies/services.” However, the justification did not include substantive
        evidence that no other responsible party existed and that fair pricing resulted
        from performing cost or price analysis as required. Therefore, MTC Clearfield
        could not provide assurance that the sub-contract represented the best value for
        the government. We questioned the cost for the base 2-year period of the
        contract, or $607,040.

See Exhibit 1 for a list of the 10 MTC Clearfield sub–contracts and exceptions where we
questioned costs.

Some Invoice Payments Lacked Adequate Supporting Documentation

MTC Clearfield’s SOP 507.5, Paragraph 26 requires that the Accounting Manager monitor
all financial transactions and ensure that expenditures are properly documented and
approved. However, MTC Clearfield did not obtain supporting documentation as required

12
   SOP 560.02, Paragraph B.7.a. b. states that Competition is required for purchases greater than $3,000 and
provides for a minimum number of bids. SOP 560.04.3 Paragraph B.2.k. states, “For purchases greater than the
Simplified Threshold ($100,000), the requirements for Cost or Pricing Data are applied.”
13
   SOP 560.02, Paragraph B.7.a. states that Competition is required for purchases greater than $3,000. SOP 560.04.3
Paragraph B.2.a. states, “The purchase is properly advertised and/or solicited.” Paragraph B.2.k. states, “For
purchases greater than the Simplified Threshold ($100,000), the requirements for Cost or Pricing Data are applied.”

                                                                                MTC Clearfield Sub-contracting
                                                        9                        Report No. 26-12-003-03-370
                                                U. S. Department of Labor – Office of Inspector General


by its own SOPs prior to payment for 3 of the 12 sub–contracts we reviewed. For two sub–
contracts, physicians billed hours amounting to $140,979 and $21,318 that were not
supported because documentation required by the contract was not obtained and reviewed
prior to payment. For the third sub-contract, a comparison of the receiving reports and
related invoices indicated that $2,844 was paid for pharmaceutical supplies that were not
received. In total, $165,141 in payments lacked adequate supporting documentation.
However, these costs were already included in the $2.8 million we questioned because
MTC Clearfield did not comply with its SOPs when awarding the sub–contracts.

Expenditures More Than $3,000 with Questioned Costs

As previously noted, MTC Clearfield did not comply with its own SOPs when awarding
purchase orders for 16 of the 41 expenditures more than $3,000 that we statistically
selected. For all 16 expenditures, 14 totaling $77,866, MTC Clearfield did not adequately
justify and document sole-source procurements and MTC Clearfield management
approved the expenditures without verifying the adequacy of the sole source
justifications. The following are examples of the center’s inadequate sole-source
justifications:

     •	 MTC Clearfield sole sourced a purchase of software maintenance from the
        vendor, Network Consulting Service. MTC Clearfield justified the sole-source
        purchase with documentation that indicated the vendor was the only responsible
        source for the needed supplies. However, the justification did not include
        sufficient evidence that no other responsible party existed or that the center
        performed cost or price analysis to ensure fair pricing. As such, we questioned
        the $15,851 paid for the software maintenance.

     •	 On two occasions, MTC Clearfield sole sourced purchases of graduation 

        supplies from the vendor Jostens, Inc. MTC Clearfield did not document its 

        justifications for the two sole-source purchases. As such, we questioned the 

        $14,183 paid for the two purchases of graduation supplies. 


The remaining 13 sole-source procurements were similar. MTC Clearfield did not document
or support its justifications, or did not perform cost or price analysis to ensure fair pricing.
We questioned the $77,866 in total costs for the 16 expenditures. Based on our statistical
sample, we are 95 percent confident there were between $155,860 and $309,166 in
potential questioned costs. 15

In addition, during our audit period of April 1, 2010, to March 31, 2011, we reviewed 10
expenditures representing payments made to Salt Lake Community College for educational
services. The expenditures totaling $144,428 were not included in our statistical sample.

14
   SOP 560.02, Paragraph B.7.a. states that Competition is required for purchases greater than $3,000. SOP 560.04.3
Paragraph B.2. requires the solicitation of pricing, proper advertising, competitive bidding, or a sole source
justification when competitive bidding is not possible. Paragraph B.4.c. if the procurement is designated a sole
source, a Sole Source Justification memo is required. The memo shall be written and signed by the person who
designated the purchase as a sole source and also signed by the center director.”
15
   The midpoint estimate was $232,513.

                                                                                MTC Clearfield Sub-contracting
                                                       10                        Report No. 26-12-003-03-370
                                              U. S. Department of Labor – Office of Inspector General


MTC Clearfield did not justify why the procurement of the educational services was not
open to competition and why the expenditures were paid without a sub-contract or
purchase orders as required. 16 In accordance with MTC Clearfield’s SOPs, MTC should
have competed the procurements fairly and openly and awarded a purchasing instrument
appropriate to the circumstances or properly justified sole-source procurement. On April 1,
2011, MTC Clearfield awarded a sub-contract to Salt Lake Community College to provide
the educational services, but unlike the previous period, MTC used a contracting instrument
as required.

Together with the 10 improperly awarded sub–contracts, the 16 improperly awarded
purchase orders, and the 10 expenditures paid without a contracting instrument, the total
costs for improperly awarded subcontracts, purchase orders, and expenditures may be as
high as $3.3 million ($2,813,773 plus $309,166 plus $144,428).

Non-Compliance Caused by Weak Control Environment

These conditions occurred because MTC Clearfield did not always follow its own SOPs
as cited in this report; and training and oversight were not adequate. The center also did
not have sufficiently detailed procedures in place. MTC Clearfield can improve its
procurement SOPs to include adequate documentation, evaluator signatures,
advertising, evaluations, and cost support. For example, specific guidance on justifying
sole source procurement should result in more effective efforts to solicit multiple
sources (such as market research, direct solicitations) and improved documentation of
those efforts. As such MTC Clearfield had not established a control environment to
ensure compliance and best value to the government. In response to our draft report,
MTC disagreed with our use of specific FAR criteria when assessing MTC Clearfield’s
procurement practices. Based on the responses of MTC and ETA, we adjusted the
report to reflect that MTC must comply with its own procurement SOPs, which must be
consistent with the FAR principles for fair and open competition. We also believe that
MTC’s response does not adequately address its inconsistent contracting practices as
defined by its own procurement guidance. The change in criteria and nothing MTC
provided us significantly changed our conclusions.

Our conclusions are also consistent with past reviews conducted by DOL and MTC.
MTC had not established effective controls even though the results of a DOL CPSR in
2005 identified procurement deficiencies and a lack of management controls. For
example, the 2005 CPSR report stated that files for sole-source purchases did not
contain adequate detail to justify the sole-source awards. Additionally, the report stated
that file documentation for cost or price analysis did not conclude whether prices were
considered fair and reasonable. Although MTC provided a corrective action plan for
these findings, MTC Clearfield still had problems in 2011 justifying sole-source
procurement and conducting cost or price analysis.

16
  SOP # 560.02, Paragraph B.7.a. – states that Competition is required for purchases greater than $3,000 ….,
SOP # 560.04 – Paragraph A – Major purchases must be processed by means of a purchase requisition (PR) and
subsequent purchase order (PO)…, SOP # 560.04.3 – (See Par. B.1., B.2., B.4., B.7., B.12); and SOP # 507.5 –
(See Par. B. Purchase Requisition/Purchase Order).

                                                                              MTC Clearfield Sub-contracting
                                                      11                       Report No. 26-12-003-03-370
                                     U. S. Department of Labor – Office of Inspector General



MTC also conducted a Corporate Assessment of MTC Clearfield in October 2010. This
internal assessment determined that procurement files were missing required
documents, including sole-source justifications. MTC Corporate recommended to MTC
Clearfield that it “should ensure all files are documented as required in accordance with
all corporate finance policies.” In response to the assessment, the MTC Clearfield
procurement staff was provided training. Despite the training, we identified sole-source
problems in 2011 and concluded that the training and oversight was not adequate.

Furthermore, neither ETA contracting personnel nor Job Corps regional staff adequately
monitored MTC Clearfield’s procurement activities to determine whether MTC
Clearfield’s use of competition and best value were achieved in its sub-contracting.
MTC had an approved purchasing system, had obtained consent from the ETA
Contracting Officer for its health and medical and multi-year sub–contracts, and had
approved SOPs, which were, by approval, deemed adequate by ETA. Despite these
approvals, MTC Clearfield did not consistently comply with its own SOPs and ensure
best value to the government.

Job Corps’ Dallas Regional Office also conducted a Regional Office Center Assessment
(ROCA) at MTC Clearfield in May 2011. However, the ROCA did not include any work
on procurement matters at MTC Clearfield. ETA contracting officials told us the ROCA
does not normally include procurement matters as the Job Corps program no longer
has contracting authority, and the ROCA is designed as a Job Corp program review of
the center and not as a procurement review of the center. However, Job Corps and ETA
have the option of reviewing procurement during a ROCA or independently when known
problems exist. Neither Job Corps nor ETA identified MTC Clearfield’s continuing
procurement problems.

Recommendations

We recommend the Assistant Secretary for Employment and Training require the
Management & Training Corporation to:

   1. Strengthen MTC Clearfield SOPs pertaining to procurement. Revisions need to
      include the required documentation and evaluator signatures and the specific
      steps to ensure sub–contracts and expenditures are advertised, evaluated,
      awarded, and costs supported.

   2. Repay questioned costs as appropriate. This includes ETA making a final
      determination on the amount of excess funds paid by the contractor to be
      recovered while recognizing the value of goods and services received. This also
      includes a final determination pertaining to the inadequately documented invoice
      payments.




                                                               MTC Clearfield Sub-contracting
                                           12                   Report No. 26-12-003-03-370
                                        U. S. Department of Labor – Office of Inspector General


   3. Provide training as needed to ensure procurement staff is proficient on its own
      MTC Clearfield procurement requirements.

   4. Develop procedures for providing and documenting supervisory oversight of MTC
      Clearfield procurements.

Also, we recommend that the Assistant Secretary require the Regional Job Corps Office
and ETA Contracting Officers to:

   5. Strengthen procedures to ensure MTC Clearfield complies with its own
      procurement guidance when awarding sub–contracts and purchase orders and
      claiming related costs. This should include reviewing MTC Clearfield’s
      procurement activities for adequate compliance during on-site center
      assessments.

   6. Review all future MTC Clearfield sub–contracts for adequate procurement 

      compliance prior to approval. 


We appreciate the cooperation and courtesies that ETA personnel and MTC Clearfield
officials extended to the Office of Inspector General during this audit. OIG personnel
who made major contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General for Audit




                                                                  MTC Clearfield Sub-contracting
                                              13                   Report No. 26-12-003-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   MTC Clearfield Sub-contracting
               14                   Report No. 26-12-003-03-370
             U. S. Department of Labor – Office of Inspector General




Exhibits 





                                       MTC Clearfield Sub-contracting
                   15                   Report No. 26-12-003-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   MTC Clearfield Sub-contracting
               16                   Report No. 26-12-003-03-370
                                              U. S. Department of Labor – Office of Inspector General


                                                                                                     Exhibit 1

MTC Clearfield Sub–contracts and SOP Non-compliance



                                Amount of
                                                 Goods or
Vendor Name                     Contract*      Service Provided SOP Non-compliance
Adventures in Advertising         $607,040             Clothing • Inadequate Sole Source Justification
                                                                •	 No evidence other vendors not available
                                                                •	 Cost or Price Analysis was not conducted or
                                                                   documented

Clark Finlinson, DDS                 45,408               Dental   • Responsibility checks (e.g.; quality, delivery,
                                                                     technical aspects) not performed on all
                                                                     bidders; award was based solely on price

Davis Applied Technology            701,794         Specialized    • Inadequate Sole Source Justification
College – Off Center Training                          Training    • No evidence other vendors not available
                                                                   •	 Cost or Price Analysis was not conducted or
                                                                      documented

Davis Applied Technology –          188,081         Specialized    • Inadequate Sole Source Justification
Advanced Career Training                               Training    • No evidence other vendors not available
                                                                   •	 Cost or Price Analysis was not conducted or
                                                                      documented

Diane E.H. Wilson, MD-P             254,150           Physician    • Responsibility checks (e.g.; quality, delivery,
                                                                     technical aspects) not performed on all
                                                                     bidders; award was based solely on price

Hill AFB Pharmaceuticals            444,000     Pharmaceuticals    • Inadequate Sole Source Justification
                                                                     documented

Matthew J. Gardiner, MD              68,800          Psychiatric   • Only one bidder with no further solicitation
                                                                   •	 Cost or Price Analysis was not conducted or
                                                                      documented

Michael G. Thain, OD                 61,250          Optometry     • Responsibility checks (e.g.; quality, delivery,
                                                                     technical aspects) not performed on all
                                                                     bidders; award was based solely on price

Weber State University               75,750         Specialized    • Inadequate Sole Source Justification
                                                       Training    • No evidence other vendors not available
                                                                   •	 Cost or Price Analysis was not conducted or
                                                                      documented

Davis Hospital and Medical          367,500         Emergency      • Inadequate Sole Source Justification
Center                                                Medical      • No evidence other vendors not available
                                                                   •	 Cost or Price Analysis was not conducted or
                                                                      documented

Total                           	$2,813,773

*The “Amount of Contract” column reflects base year amounts only and not option-year
amounts.



                                                                              MTC Clearfield Sub-contracting
                                                    17
                        Report No. 26-12-003-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   MTC Clearfield Sub-contracting
               18                   Report No. 26-12-003-03-370
                                     U. S. Department of Labor – Office of Inspector General


                                                                                  Exhibit 2
FAR Criteria on Sub-contracting Used by ETA Contracting Officers

The following FAR subparts show the criteria ETA Contracting Officers use when
reviewing sub-contracting by center operators.

FAR Part 44, Subcontracting Policies and Procedures

   •	 FAR Subpart 44.202-2(a)(5) – The Contracting Officer shall obtain adequate
      price competition or properly justify its absence.

   •	 FAR Subpart 44.202-2(a)(7) and FAR Subpart 9.104-1 – The Contracting Officer
      shall obtain a sound basis for selecting and determining the responsibility of the
      particular subcontractor, including past performance, technical requirements, and
      ability to comply with proposed performance and delivery schedules.

   •	 FAR Subpart 44.202-2(a)(8) – The Contracting Officer shall perform adequate
      cost or price analysis or price comparisons and obtain certified cost or pricing
      data and data other than certified cost or pricing data.

   •	 FAR Subpart 44.202(a)(9) – The Contracting Officer shall select the sub-contract
      type that should be appropriate for the risks involved and be consistent with
      current policy.

   •	 FAR Subpart 44.202-2(a)(11) – The Contracting Officer shall adequately and
      reasonably translate prime contract technical requirements into subcontract
      requirements.

FAR Subpart 52.216-7, Allowable Cost and Payment

   •	 Subpart 52.216-7(a) Invoicing (sub-paragraph 1) – The Government will make
      payments to the Contractor in accordance with FAR Subpart 31.2.

FAR Subpart 31.2 Contracts with Commercial Organization

   •	 Subpart 31. 201-2 (d) Determining Allowability – A contractor is responsible for
      accounting for costs appropriately and for maintaining records, including
      supporting documentation, adequate to demonstrate that costs claimed have
      been incurred, and are allocable to the contract. The Contracting Officer may
      disallow all or part of a claimed cost that is inadequately supported.




                                                               MTC Clearfield Sub-contracting
                                           19                   Report No. 26-12-003-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   MTC Clearfield Sub-contracting
               20                   Report No. 26-12-003-03-370
               U. S. Department of Labor – Office of Inspector General




Appendices 





                                         MTC Clearfield Sub-contracting
                     21                   Report No. 26-12-003-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   MTC Clearfield Sub-contracting
               22                   Report No. 26-12-003-03-370
                                                   U. S. Department of Labor – Office of Inspector General


                                                                                                     Appendix A
Background

Job Corps is authorized by Title I-C of WIA and is administered by ETA’s Office of Job
Corps under the leadership of the National Director, who is supported by a field network
of six Regional Offices of Job Corps. The Job Corps program’s budget for FY 2011
totaled about $1.7 billion.

The purpose of Job Corps is to assist disadvantaged youth, ages 16-24, who need and
can benefit from a comprehensive program operated primarily in the residential setting
of a Job Corps Center (JCC), to become more responsible, employable, and productive
citizens by developing employability skills. Its training activities and living facilities are
housed within 125 centers throughout the country.

Management & Training Corporation (MTC) operates the Clearfield Job Corps Center
(MTC Clearfield), located in Clearfield, Utah. MTC Clearfield is located in Clearfield,
Utah, and consists of several buildings. One of these buildings houses the center
administration and training sites. Other buildings house the student dormitory, cafeteria,
recreation, the career preparation program, academic training classes, outreach and
admissions, and the career transition department.

MTC was awarded contract number J10F6UT014 to operate the MTC Clearfield center
effective April 1, 2010. MTC Clearfield’s contract covers the five-year period from
April 1, 2010, to March 31, 2015 and totals approximately $146 million. The contract is for
operations of the MTC Clearfield center for the base two year period April 1, 2010,
through March 31, 2012, at an estimated cost of $57 million. In addition, MTC was
awarded 3 option years, for the period April 1, 2012, through March 31, 2015, at a cost
of approximately $89 million. MTC Clearfield has an authorized On-Board-Strength of
1,120 students.

MTC had an approved CPSR. As such, MTC Clearfield was required to submit only its
health and medical sub–contracts to ETA for consent prior to contract award. 17 Additionally,
MTC Clearfield’s SOPs were approved by ETA when MTC was awarded the contract to
operate MTC Clearfield. If MTC Clearfield sub-contracting execution is not consistent with
its SOPs, then ETA is authorized by the FAR to withdraw MTC CPSR approval. 18




17
     Center operators without an approved CPSR are required to submit all sub-contracts to ETA for consent.
18
     FAR Subpart 44.305-3.

                                                                                   MTC Clearfield Sub-contracting
                                                           23                       Report No. 26-12-003-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   MTC Clearfield Sub-contracting
               24                   Report No. 26-12-003-03-370
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Based on the responses of MTC and ETA to our draft report and subsequent
communication, we revised our criteria to evaluate MTC Clearfield’s compliance with its
own procurement SOPs and the SOPs consistency with the FAR requirement for ensuring
best value to the government. As such, our audit objective was to answer the following
question:

   Did MTC Clearfield ensure best value when awarding sub–contracts and claiming
   costs?

Scope

The audit covered sub–contracts managed and expenditures incurred by MTC
Clearfield from April 1, 2010, to March 31, 2011. We reviewed 12 sub–contracts (and
their related invoice payments) more than $25,000, totaling approximately $2,884,104,
managed by MTC Clearfield during this period. Furthermore, we reviewed invoices paid
and associated with the 12 sub–contracts. In addition, we reviewed two Strategic
Agreements awarded by MTC headquarters’ procurement staff. We also reviewed a
statistical sample of 41 expenditures more than $3,000, totaling approximately
$322,000, from a universe of 121 expenditures totaling approximately $942,000.
Additionally, we reviewed 10 expenditures that were not statistically selected, totaling
approximately $144,000. Expenditures were generally initiated by purchase orders and
were separate items from the 12 sub–contracts we reviewed. MTC’s contract to operate
the MTC Clearfield center was not included in our review because it was awarded by
ETA.

Our audit work was conducted at the MTC Clearfield Job Corps Center in Clearfield,
UT; MTC Headquarters in Centerville, UT; ETA Headquarters’ Office of Contract
Management and the Job Corps National Office in Washington, DC; the Dallas Regional
Office of Job Corps in Dallas, TX; and the Philadelphia Regional Office of Job Corps in
Philadelphia, PA.

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases. We conducted audit work at MTC Clearfield in Clearfield,
UT, and ETA’s National Office in Washington, DC.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence



                                                               MTC Clearfield Sub-contracting
                                           25                   Report No. 26-12-003-03-370
                                     U. S. Department of Labor – Office of Inspector General


obtained provides a reasonable basis for our findings and conclusions based on the
audit objective.

Methodology

To accomplish the audit objective, we obtained an understanding of FAR and Job
Corps’ and MTC Clearfield’s procurement regulations and policies. We conducted
interviews with MTC Clearfield officials responsible for procurement and invoice
payment.

To assess MTC Clearfield’s internal controls over procurement, we interviewed key
center staff; compared applicable Job Corps requirements, including the Job Corps
PRH, with applicable sections of the FAR, contract provisions, and MTC Clearfield’s
SOPs; analyzed the most recent Job Corps Regional Office Center Assessment and
MTC’s most recent corporate center assessment; and performed a walkthrough of the
procurement process. We identified and evaluated the internal controls of MTC
Clearfield, MTC Corporate, and ETA/Job Corps over the monitoring and approval of
sub–contracts as of March 2011.

Specifically, we obtained all supporting documents pertaining to announcing the
solicitation, performing responsibility checks of vendors, awarding the contracting
instrument, and paying invoices for the 12 sub–contracts and 41 expenditures. We
tested files for completeness for the 12 sub–contracts by conducting a meeting with the
MTC Clearfield Buyer and by reviewing the contract files in his office. We tested for
completeness of the check register by verifying check dates that were issued during our
audit period, by verifying that all checks were in sequential order, and by verifying that
missing checks had been voided by MTC Clearfield. We requested copies of bank
statements and requested a judgmental sample of canceled checks to confirm payees
and amounts.

We tested approximately 33 percent of the invoices for the 12 sub–contracts. For 3 of
the 12 sub–contracts, we expanded our invoice testing to all 12 months of invoice
payments. We did not test invoices associated with the two Strategic Agreements
awarded by MTC Corporate.

For the 12 sub–contracts awarded by MTC Clearfield, we obtained the contract file and
all supporting documentation. We reviewed all 12 sub–contracts, totaling approximately
$2,884,104 million, managed by MTC Clearfield from April 1, 2010, to March 31, 2011.

We tested each of the sub–contracts and expenditures for compliance with the MTC
Clearfield’s SOPs, including awarding sub–contracts based on advertising, competition,
adequate justification, documentation, and cost or price analysis. We also reviewed a
statistical sample of 41 expenditures more than $3,000, totaling $322,000, from 121
expenditures totaling $942,000. These expenditures were generally initiated by
purchase orders and were separate items from the 12 sub–contracts we reviewed. In
addition, we reviewed 10 expenditures totaling approximately $144,000 that were not

                                                               MTC Clearfield Sub-contracting
                                            26                  Report No. 26-12-003-03-370
                                      U. S. Department of Labor – Office of Inspector General


statistically selected. These expenditures represented payments to a community college
for student educational services and the expenditures had no associated contracting
instrument.

For purchase orders issued by MTC Clearfield, we obtained the check register for the
audit period. From the check register, we excluded checks related to payroll, checks
less than $3,000, contract invoices for the 12 sub–contracts, and checks for utilities.
This left 121 expenditures, totaling $942,000. We used statistical sampling to select a
sample of 41 expenditures, totaling $322,000.

A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. This included reviewing MTC Clearfield’s policies and procedures
related to procurement. We confirmed our understanding of these controls and
procedures through interviews and documentation review and analysis. We evaluated
internal controls used by MTC Clearfield for reasonable assurance that the awarding of
sub–contracts and payment of invoices were done according to Federal and Job Corps
requirements. Our consideration of MTC Clearfield’s internal controls for awarding of
sub–contracts and payment of invoices would not necessarily disclose all matters that
might be reportable conditions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and not be detected.

To achieve the assignment’s objective, we relied on the computer-processed data
contained in MTC Clearfield’s check register. We assessed the reliability of the data by
(1) performing various testing of required data elements, and (2) interviewing MTC
Clearfield financial officials knowledgeable about the data. Based on these tests and
assessments, we concluded the data was sufficiently reliable to use in meeting the audit
objective.

Criteria

We used the following criteria to perform this audit:

   •   Federal Acquisition Regulations,
   •   Job Corps Policy and Requirements Handbook,
   •   MTC Clearfield Standard Operating Procedures, and
   •   MTC Corporate Standard Operating Procedures.

Specifically, FAR Subpart 44.302 requires ETA to determine the need for a Contractor’s
Purchasing System Review (CPSR) based on, but not limited to, the past performance of
the contractor and dollar value of sub–contracts (generally $25 million). FAR Subpart
44.301 states the objective of a CPSR is to evaluate the efficiency and effectiveness with
which the contractor spends Government funds and complies with Government policy when
sub-contracting. The review provides the Contracting Officer with a basis for granting,

                                                                MTC Clearfield Sub-contracting
                                            27                   Report No. 26-12-003-03-370
                                                U. S. Department of Labor – Office of Inspector General


withholding, or withdrawing approval of the contractor’s purchasing system. 19 Furthermore,
FAR Subpart 44.303 states, “The 13 considerations listed in FAR Subpart 44.202-2 for
consent evaluation of particular sub–contracts also shall be used to evaluate the
contractor’s purchasing system, including the contractor’s policies, procedures, and
performance under that system. Special attention shall be given to:

       (a) The results of market research accomplished;
       (b) The degree of price competition obtained;
       (c) Pricing policies and techniques, including methods of obtaining certified cost or
           pricing data;
       (d) Methods of evaluating sub-contractor responsibility;
       (g) Planning, award, and post-award management of major sub-contract programs;
           and
       (j) Appropriateness of types of contracts used.”

In addition, DOL policy for conducting CPSRs (Section 4.9) states that it is in the
government’s interest to perform CPSRs when a contractor’s total combined business with
Job Corps exceeds $25 million. The policy further clarifies the center operators’
responsibility to establish procurement policies and procedures that are consistent with the
FAR. The DOL policy states that under the terms of center operator contracts, Contracting
Officers are responsible for ensuring that contractors procure goods and services on behalf
of the Job Corps program in conformance with the contract provisions and principles
detailed in the FAR. Contracting officers can either review and consent to all sub–contracts
for the contract, or may approve the contractor’s purchasing system. The policy also states
that the FAR allows for approval of purchasing systems that demonstrate compliance with
FAR principles after a rigorous review of all purchasing manuals and procedures.
Additionally, MTC’s corporate Standard Operating Procedures (SOP) require that its center
processes be consistent with government regulations. 20

.




19
   ETA reviews each center operator’s procurement systems every three years. If the procurement system is “approved,” 

ETA contracting officials reduce their oversight of the center operator’s procurement activities. 

20
   MTC SOP #13.01, General Purchasing Policy, dated January 1, 2011, Paragraph B.1. 


                                                                                 MTC Clearfield Sub-contracting
                                                        28                        Report No. 26-12-003-03-370
                                 U. S. Department of Labor – Office of Inspector General


                                                                          Appendix C
Acronyms

DOL              U.S. Department of Labor

ETA              Employment and Training Administration

FAR              Federal Acquisition Regulation

MTC              Management & Training Corporation

MTC Clearfield   Clearfield Job Corps Center Operated by MTC

OIG              Office of Inspector General

PO               Purchase Orders

PRH              Policy and Requirements Handbook

SOP              Standard Operating Procedures

WIA              Workforce Investment Act




                                                           MTC Clearfield Sub-contracting
                                       29                   Report No. 26-12-003-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   MTC Clearfield Sub-contracting
               30                   Report No. 26-12-003-03-370
                               U. S. Department of Labor – Office of Inspector General


                                                                        Appendix D
ETA Response to Draft Report




                                                         MTC Clearfield Sub-contracting
                                     31                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      32                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      33                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      34                   Report No. 26-12-003-03-370
                               U. S. Department of Labor – Office of Inspector General


                                                                        Appendix E
MTC Response to Draft Report




                                                         MTC Clearfield Sub-contracting
                                     35                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      36                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      37                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      38                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      39                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      40                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      41                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      42                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      43                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      44                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      45                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      46                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      47                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      48                   Report No. 26-12-003-03-370
U. S. Department of Labor – Office of Inspector General




                          MTC Clearfield Sub-contracting
      49                   Report No. 26-12-003-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   MTC Clearfield Sub-contracting
               50                   Report No. 26-12-003-03-370
                                      U. S. Department of Labor – Office of Inspector General


                                                                               Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), Alvin Edwards (Audit
Manager), Renee Harrison-Womack (Lead Auditor), Travis Williams, Nicholas Cumby, and
Ronald Larry (Auditors), and Steve Witherspoon (Reviewer).




                                                                MTC Clearfield Sub-contracting
                                            51                   Report No. 26-12-003-03-370
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	      http://www.oig.dol.gov/hotlineform.htm
Email:	       hotline@oig.dol.gov

Telephone:	   1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210
